CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing has been furnished by
electronic mail to Charmaine M. Millsaps, Senior Assistant Attorney General, Office of
the Attorney General, The Capitol, PL-01, Tallahassee, FL 32399-1050, on July 7, 2020.

is/ linda McDermott
linda McDermott
Counsel of Record
KATHERINE A BLAIR
RAYMOND DENECKE
Capital Habeas Unit
Office of the Federal Public Defender
Northern District of Florida
227 North Bronough St., Suite 4200
Tallahassee, Florida 32301
(850) 942-8818
hnda_mcdermott@fd.org
katherine_blair@fd.org
rajonond_denecke@fd.org

July 7,2020

41

